Nos. 19-251, 19-255
IN THE SUPREME COURT OF THE UNITED STATES
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,

v.
MATTHEW RODRIQUEZ,
ACTING ATTORNEY GENERAL OF CALIFORNIA,

Respondent.

THOMAS MORE LAW CENTER,
Petitioner,
v.
MATTHEW RODRIQUEZ,
ACTING ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Brief of Amici Curiae Public Citizen and Public Citizen Foundation in Support of
Respondent contains 4,763 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on March 31, 2021.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000

